No. 19-158
In the

Supreme Court of the United States
__________________
DR. MARCUS TURNER, SR., RUSSELL MOORE, JR., AND
BEULAH COMMUNITY IMPROVEMENT CORP.,
Petitioners,
v.
ALVA C. HINES, ET AL.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
District of Columbia Court of Appeals

__________________
REPLY BRIEF OF PETITIONERS
__________________

JOSEPH G. COSBY
BUTZEL LONG, P.C.
1909 K Street, N.W.
Suite 500
Washington, DC 20006
(202) 454-2800
cosby@butzel.com

JOSEPH E. RICHOTTE
Counsel of Record
BUTZEL LONG, P.C.
Stoneridge West
41000 Woodward Avenue
Bloomfield Hills, MI 48304
(248) 258-1616
richotte@butzel.com

Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I.

Lower courts split on whether to apply a onepart or two-part “neutral principles of law”
test . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
A. The sharpest split is whether courts or
churches should judge misappropriation
or waste claims involving church assets . . 3
B. Other courts confirm the depth and the
breadth of the split. . . . . . . . . . . . . . . . . . . 7
C. Lower courts do not uniformly apply
Hosanna-Tabor or Kedroff . . . . . . . . . . . . 10

II.

Lower courts split over the need to consider
whether the scope and nature of remedies
comports with the First Amendment . . . . . . 11

III.

The lower court proceedings place
petitioners’ First Amendment rights in
immediate jeopardy and this court should act
now to preserve those rights . . . . . . . . . . . . . 12

IV.

This case, which does not implicate the
Incorporation Doctrine, is an excellent
vehicle for resolving extremely important
First Amendment issues . . . . . . . . . . . . . . . . 13

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
TABLE OF AUTHORITIES
CASES
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014). . . . . . . . . . . . . . . . . . . . . . . . 2
Combs v. Central Texas Annual Conference of
United Methodist Church,
173 F.3d 343 (CA5 1999) . . . . . . . . . . . . . . 7, 9, 10
Corporation of Presiding Bishop v. Amos,
483 U.S. 327 (1987). . . . . . . . . . . . . . . . . . . . . . 2, 3
Costello Publ’g Co. v. Rotelle,
670 F.2d 1035 (CADC 1981) . . . . . . . . . . . . . . . . 11
Family Fed’n for World Peace v. Hyun Jin Moon,
129 A.3d 234 (D.C. 2015) . . . . . . . . . . . . . . . . . . . 6
Feliciano v. Roman Catholic and Apostolic Church,
200 DPR 458 (P.R. 2018) . . . . . . . . . . . . . . . . . . 12
F.G. v. MacDonell,
696 A.2d 697 (N.J. 1997) . . . . . . . . . . . . . . . . . . . 9
Greater Fairview Missionary Baptist Church v.
Hollins,
160 So.3d 223 (Miss. 2015) . . . . . . . . . . . . . . . 6, 11
Harris v. Matthews,
643 S.E.2d 566 (N.C. 2007) . . . . . . . . 3, 4, 5, 6, 11
Hosanna-Tabor Evangelical Lutheran Church &
School v. E.E.O.C.,
565 U.S. 171 (2012). . . . . . . . . . . . . . . . . . 1, 10, 11

iii
Kedroff v. Saint Nicholas Cathedral of Russian
Orthodox Church in North Am.,
344 U.S. 94 (1952). . . . . . . . . . . . . . . . . . . . . . 1, 10
Martinelli v. Bridgeport Roman Catholic Diocesan
Corp.,
196 F.3d 409 (CA2 1999) . . . . . . . . . . . . . . . . . 8, 9
McKelvey v. Pierce,
800 A.2d 840 (N.J. 2002) . . . . . . . . . . . . . . . . . . . 9
NLRB v. Catholic Bishop of Chicago,
440 U.S. 490 (1979). . . . . . . . . . . . . . . . . . . . 11, 12
National Socialist Party of Am. v. Village of Skokie,
432 U.S. 43 (1977). . . . . . . . . . . . . . . . . . . . . . . . 12
Puri v. Khalsa,
844 F.3d 1152 (CA9 2017) . . . . . . . . . . . . . . . . . 10
Rweyemamu v. Cote,
520 F.3d 198 (CA2 2008) . . . . . . . . . . . . . . . . . . . 8
Schmidt v. Catholic Diocese of Biloxi,
18 So.3d 814 (Miss. 2009) . . . . . . . . . . . . . . . 3, 4, 5
Turner v. Hines,
No. 16-CV-444 (D.C. Jan. 16, 2019) . . . . . . . . . . 12
United Methodist Church v. White,
571 A.2d 790 (D.C. 1990) . . . . . . . . . . . . . . . . . . 11
Westbrook v. Penley,
231 S.W.3d 389 (Tex. 2007) . . . . . . . . . . 7, 8, 9, 11

1
INTRODUCTION
In spite of respondents’ best efforts to deny it, there
is an irreconcilable split among the lower courts
concerning whether, under the First Amendment,
courts are the appropriate judges of allegations that
pastors or other church ministers have wasted or
misappropriated assets of the church. Courts that
follow a one-part “neutral principles of law” test,
focusing solely on whether the case presents any
religious doctrinal issues, hold that they can judge
these cases. These courts include the District of
Columbia Court of Appeals that decided this case
below.
But other courts, like the Supreme Courts of
Mississippi and North Carolina and the Fifth Circuit,
apply a more restrained two-part test and hold that the
First Amendment requires courts to defer to the
judgment of the church in such matters. As this
deferential approach has been most clearly articulated
by the Fifth Circuit, a court must apply a two-step test.
Under this two-step test, the court determines
(1) whether the case requires the court to decide any
religious “doctrinal” issues, and (2) whether the case
“intrudes coercively” into the church’s right of selfgovernance. The court can proceed only if the answer to
both questions is “no.”
This two-step deferential approach produces
palpably different results than does the one-step test
preferred by the D.C. Court of Appeals. Under the onestep approach, this Court’s “intrusiveness”
precedents—Kedroff, Hosanna-Tabor, and others—are
subsumed into the court’s inquiry as to whether the

2
court must decide any religious doctrinal issues. If
there are no doctrinal issues, the court concludes that
it has satisfied the requirement not to intrude too
deeply into church affairs. But the two-step process
treats the intrusiveness requirement as a separate
issue that must be addressed separately.
Respondents erroneously contend that the petition
challenges only two of the five forms of relief requested
in the complaint. Opp’n.31. On the contrary, petitioners
challenge all of the relief sought because respondents
seek relief solely on behalf of the church, not on their
behalf. Pet.1. Petitioners highlighted the requested
injunctive relief only to clarify what is at stake, not to
suggest that the other prayers for relief are consistent
with the First Amendment.
Respondents further argue incorrectly that
awarding damages would not offend the First
Amendment. But both this Court and the lower courts
have held that any claim for liability—including for
damages—can threaten a church’s ability to govern its
internal affairs without interference from the courts.
Any form of liability is a threat to the First
Amendment.
Respondents fallaciously argue that petitioner
BCIC, a nonprofit corporation created to assist the
church in its work (App.4, 77), does not have standing
to assert First Amendment rights. Opp’n.32. But this
Court has consistently held that corporations,
especially nonprofit corporations, have First
Amendment rights. Burwell v. Hobby Lobby Stores,
Inc., 573 U.S. 682 (2014); Corporation of Presiding
Bishop v. Amos, 483 U.S. 327, 342 (1987) (Brennan, J.,

3
concurring). And even if BCIC is not a proper
petitioner, respondents do not and cannot challenge the
rights of the two other petitioners, who are individual
leaders in the church.
I.

Lower courts split on whether to apply a
one-part or two-part “neutral principles of
law” test.
A. The sharpest split is whether courts or
churches should judge misappropriation
or waste claims involving church assets.

Respondents erroneously assert that the petition
“fail[s] to cite a single federal or state case that
prohibits a court from adjudicating claims seeking
recover of misappropriated and wasted assets on the
ground that they intrude into church affairs.” Opp’n.3
(emphasis in original). Both Schmidt v. Catholic
Diocese of Biloxi, 18 So.3d 814 (Miss. 2009), and Harris
v. Matthews, 643 S.E.2d 566 (N.C. 2007), do exactly
that.
Schmidt approved only a narrow right for donors to
sue where the church solicits funds for a specific
purpose but spends the contributions on another,
unauthorized purpose. 18 So.3d at 830. Under those
circumstances, “the donors may reclaim their
contributions.” Id.
The court took a much different view of claims that
the church’s clergy had misused church funds. 18
So.3d at 829–30. The Mississippi Supreme Court
declared that the trial court “correctly determined that
our courts may not consider whether Church
Defendants' management or administrative decisions

4
were fiscally irresponsible, or whether those decisions
were in the best interests of parishioners.” Id.
(emphasis supplied). Citing Harris, the court
proclaimed that such claims were unconstitutional
because “civil courts may not second-guess church
administrative or management decisions, or substitute
their judgment in place of the church’s.”
These claims did not turn on standing, as
respondents suggest. Opp’n.24–26. The standing issue
arose only with respect to the first claim in Schmidt, a
claim concerning the clergy’s right to dispose of the
church’s real property. Id. at 823, ¶ 19 and 823–26
(describing claim and analyzing real estate chain of
title). Contrary to the opposition, the first claim did not
involve “misused church funds,” Opp’n.24, but title to
real property.
The claims for misuse of church funds were limited
to the second and third claims. The court’s reliance on
Harris is most instructive. The court quoted the
following passage from Harris to support its conclusion
that the First Amendment bars individual congregants
from suing clergy over the management of church
funds:
Determining whether actions, including
expenditures, by a church’s [pastor], secretary,
and chairman of the Board of Trustees were
proper requires an examination of the church’s
view of the role of the [pastor], staff, and church
leaders, their authority and compensation, and
church management. Because a church’s
religious doctrine and practice affect its
understanding of each of these concepts, seeking

5
a court’s review of the matters presented here is
no different than asking a court to determine
whether a particular church’s grounds for
membership are spiritually or doctrinally correct
or whether a church’s charitable pursuits accord
with the congregation’s beliefs. None of these
issues can be addressed using neutral principles
of law.
Id. at 829 (quoting Harris, 643 S.E.2d at 571).
In Harris, as here, members of a missionary Baptist
church sued the pastor and other church leaders for
using a separate non-profit organization to purportedly
misappropriate church funds. The members sought
relief entirely on behalf of the church, not for any
injury to themselves. Id. at 567–68. The Supreme
Court of North Carolina explicitly held that the First
Amendment barred their claims for conversion of the
church’s funds, breach of fiduciary duty, and civil
conspiracy.
The opposition inaccurately argues that the
complaint in this case is different because it alleges
that the pastor acted ultra vires. Opp’n.26. The Harris
plaintiffs alleged that the pastor “usurped the
governmental authority of the church’s internal
governing body.” Harris, 643 S.E.2d at 571.
Nor does the ultra vires argument bear any
relationship to how the D.C. Court of Appeals decided
this case. Even before this case, that court held that
civil courts may hear any claims that “rely upon
doctrines basic to our legal system” that are grounded
in “ancient and well-developed legal area[s] with deep

6
roots in Anglo-American law.” Family Fed’n for World
Peace v. Hyun Jin Moon, 129 A.3d 234, 249 (D.C. 2015).
The D.C. Court of Appeals applied that test and
concluded that claims for unjust enrichment, breach of
fiduciary duty, and civil conspiracy all rely on
“doctrines basic to our legal system....” App.14. The
court never mentioned ultra vires, and its decision rests
on the trial court’s ability to entertain claims also
present in Harris.
The conflict exits because in jurisdictions like
Mississippi and North Carolina, courts defer more
readily to a church’s authority. In Harris, the claims
asserted by the church’s members were submitted to
the church’s Council of Ministry. The Council had
“considered some of the expenditures challenged by
[the members], taken action, and declared the matter
closed.” Id. at 571. Likewise, the Mississippi Supreme
Court requires trial courts to defer matters concerning
a church’s management or administration to the
church. See Greater Fairview Missionary Baptist
Church, 160 So.3d 223, 232–33 (Miss. 2015).
Here, the D.C. Court of Appeals took exactly the
opposite course and remanded the case to the trial court
for resolution. Unlike the Supreme Courts of
Mississippi and North Carolina, the D.C. Court of
Appeals based its decision entirely on whether it was
required to decide a religious doctrinal dispute.
Because claims for conversion, breach of fiduciary duty,
and civil conspiracy can be determined (at least
facially) by “neutral principles of law,” the D.C. court
looked no further to determine whether the dispute

7
required it to “intrude coercively” into the church’s
internal affairs.
B. Other courts confirm the depth and the
breadth of the split.
1. Fifth Circuit and Texas. Courts in other circuits
have defined and deepened this split. The Fifth Circuit
explicitly rejected the one-part test used by the D.C.
Court of Appeals. In Combs v. Central Texas Annual
Conference of United Methodist Church, 173 F.3d 343,
350 (CA5 1999), the Fifth Circuit held that a court
must also consider a second factor: whether the case
would require it “necessarily [to] intrude into church
governance in a manner that would be inherently
coercive.” Similarly, the D.C. Circuit held that courts
must engage in this second inquiry “even if the alleged
[issues] were purely nondoctrinal.” Id.
The opposition calls Combs “a straightforward
ministerial employment case.” Opp’n.23. Respondents
argue that Combs is factually distinguishable because
“church governance was at issue” while it is not
purportedly an issue in this case. Opp’n.22. But the
Texas Supreme Court adopted Combs’s two-step test to
analyze claims of a pastor’s breach of his duties as a
professional counselor to his congregant—hardly a
ministerial employment case. Westbrook v. Penley, 231
S.W.3d 389, 401–02 (Tex. 2007). Westbrook explicitly
rejected the assertion, accepted by the D.C. Court of
Appeals, that the First Amendment permits civil courts
to decide any case that does not turn on a question of
religious doctrine: “[W]hile the elements of [a]
professional-negligence claim can be defined by
neutral principles without regard to religion, the

8
application of those principles to impose liability
on [the pastor] would impinge upon [the
church’s] ability to manage its internal affairs….”
Id. at 400 (italics in original).
2. Second Circuit and New Jersey. Respondents
argue unconvincingly that the Second Circuit and New
Jersey, which, like the D.C. Court of Appeals apply a
one-part test, actually apply the same legal standards
as the Fifth Circuit and the Supreme Courts of Texas,
Mississippi, and North Carolina. Opp’n.19-22. In
Martinelli v. Bridgeport Roman Catholic Diocesan
Corp., 196 F.3d 409 (CA2 1999), the Second Circuit
held that a claim for breach of fiduciary duty could be
fashioned from the religious teachings of a church. Id.
at 431. The issue in that case, as the Second Circuit
described it, was “whether, as a matter of fact, [the
plaintiff’s] following of the teachings and belief in the
tenets [of the church] gave rise to a fiduciary
relationship between [the plaintiff] and the church.” Id.
The church, the Second Circuit declared, “points to no
disputed religious issue which the jury or the district
judge in this case was asked to resolve.” That, the
Second Circuit held, was sufficient; no need to further
consider whether the case intruded coercively into
church affairs.
Respondents argue that the Second Circuit changed
course in Rweyemamu v. Cote, 520 F.3d 198 (CA2
2008). Opp’n.20. But Rweyemamu is a ministerialexception case that does not cite or harmonize
Martinelli. The opposition does not point to any Second
Circuit case applying a two-part test, or anything like

9
it, outside the ministerial-exception context the way
Westbrook extends the principle in Combs.
The New Jersey Supreme Court’s opinion in F.G. v.
MacDonell, 696 A.2d 697, 700 (N.J. 1997) illustrates
how far courts can go when they conclude that they can
adjudicate claims that do not turn on religious doctrine.
In F.G., a congregant sued a cleric for breach of
fiduciary duty for disclosing, in his sermons, her sexual
relationship with another clergyman. Id. at 701, 705.
The question, the court held, was whether the
congregant could use the cleric’s sermons to build her
case for civil liability. Id. at 705. The court concluded
that she could. Id. Respondents make much of
McKelvey v. Pierce, 800 A.2d 840 (N.J. 2002), in which
the New Jersey Supreme Court permitted a Catholic
seminarian to sue his diocese for alleged abuse the
seminarian suffered in the seminary. McKelvey cites
F.G. favorably, id. at 855, and F.G. remains the law in
New Jersey.
Both Martinelli and F.G. applied the “neutral
principles of law test” and both interpreted that test as
requiring only that a court determine whether the case
turns on a question of “religious doctrine.” Neither
Martinelli nor F.G. considered whether the case
otherwise would “intrude coercively” into the
governance of a church. Yet one allowed a plaintiff to
build a case on church doctrine, and the other approved
claims based on a preacher’s sermon notes. And both
are still good law in their respective jurisdictions.

10
C. Lower courts do not uniformly apply
Hosanna-Tabor or Kedroff.
Respondents (unremarkably) observe that all lower
courts follow this Court’s decisions in Kedroff v. Saint
Nicholas Cathedral of Russian Orthodox Church in
North Am., 344 U.S. 94 (1952), and Hosanna-Tabor
Evangelical Lutheran Church & School v. E.E.O.C.,
565 U.S. 171, 199 (2012). Of course they do. But they
split on how to apply those cases.
One-step jurisdictions treat Kedroff and HosannaTabor as being subsumed into the “religious doctrine”
test those courts apply, while two-step jurisdictions
treat it as a separate step. Combs exemplifies the latter
position; this case exemplifies the former. Here, the
D.C. Court of Appeals cited Hosanna-Tabor and
Kedroff only once. App.7 n.15. It then immediately
concluded that courts could comply with HosannaTabor and Kedroff “as long as [they] employ neutral
principles of law and their decisions are not premised
upon their consideration of doctrinal matters….”
App.16.
Moreover, many lower courts treat Hosanna-Tabor
as a ministerial-exception case limited to that context.
See, e.g., Puri v. Khalsa, 844 F.3d 1152, 1164 (CA9
2017) (relying on Hosanna-Tabor to analyze only the
ministerial exception, and holding the ecclesiastical
abstention doctrine to be narrower).

11
II.

Lower courts split over the need to
consider whether the scope and nature of
remedies comports with the First
Amendment.

Respondents incorrectly argue that damages, unlike
injunctive relief, do not threaten petitioners’ First
Amendment rights; that it is premature for this Court
to address that issue; and that there is no split. They
are wrong on all counts.
First, this Court and others have consistently held
that damages do threaten a church’s First Amendment
rights. Hosanna-Tabor, at 194. See also Westbrook, at
400; Harris, at 568; United Methodist Church v. White,
571 A.2d 790, 791, 794 (D.C. 1990).
Second, it is not premature to consider damages at
the pleadings stage when, as here, all of the relief
sought would infringe the First Amendment. Under
those circumstances, the judicial inquiry itself would
infringe church’s First Amendment rights and should
be halted before trial, not after. Cf. NLRB.
Third, a split of authority exists. The D.C. Circuit
and the North Carolina Supreme Court hold that
courts must consider the issue of damages early in the
case and take appropriate measures to address any
First Amendment issues. See Costello Publ’g Co. v.
Rotelle, 670 F.2d 1035, 1050 n.31 and accompanying
text (CADC 1981); Greater Fairview Missionary Baptist
Church v. Hollins, 160 So.3d 223 (Miss. 2015). The
D.C. Court of Appeals and the Supreme Court of Puerto
Rico based their First Amendment analysis solely on
issues of liability and never considered whether the

12
scope or nature of the remedies sought implicated the
First Amendment. See Turner v. Hines, No. 16-CV-444
(D.C. Jan. 16, 2019); Feliciano v. Roman Catholic and
Apostolic Church, 200 DPR 458 (P.R. 2018). Feliciano
is particularly remarkable because in that case, the
court did not consider the effect of the remedies sought
even at the remedies stage. This Court should resolve
that split.
III.

The lower court proceedings place
petitioners’ First Amendment rights in
immediate jeopardy and this court should
act now to preserve those rights.

Although respondents argue that the lower courts
could still resolve the dispute on grounds other than
the First Amendment, those very proceedings are what
potentially offend the First Amendment. Cf. NLRB v.
Catholic Bishop of Chicago, 440 U.S. 490, 502 (1979)
(“the very process of inquiry” can infringe the church’s
First Amendment rights). This Court should grant
certiorari to prevent the loss of that right. See
National Socialist Party of Am. v. Village of Skokie, 432
U.S. 43, 44 (1977).
Respondents do not contest this Court’s jurisdiction,
which, as the petition demonstrated, is based on the
need to address these issues before the church loses its
First Amendment rights. Pet.14-16. But if any further
reason were needed to grant certiorari, this case gives
this Court the opportunity to affirm clearly and
forcefully that this Court and lower courts have
jurisdiction over ecclesiastical abstention doctrine
interlocutory appeals.

13
IV.

This case, which does not implicate the
Incorporation Doctrine, is an excellent
vehicle for resolving extremely important
First Amendment issues.

As petitioners have shown, lower court decisions
display not only significant splits, but also significant
confusion concerning this Court’s ecclesiastical
abstention jurisprudence. It has been 40 years since
this Court’s last decision in this area; it is an opportune
time to clarify this area of the law.
This case presents only the issues that the petition
asks this Court to resolve and does not involve
extraneous matters, such as the rights of third parties
not associated with the church. It is an internal church
dispute that does not involve title to real property, and
thus presents a narrow, important constitutional issue
that this Court has never previously addressed.
Because it emanates from the District of Columbia,
this case does not implicate the Incorporation Doctrine.
It is a clean vehicle.
CONCLUSION
The Court should grant the petition or hold it in
abeyance pending the Court’s decision in Archdiocese
of San Juan v. Feliciano, O.T. 2018, No. 921.

14
Respectfully submitted,
JOSEPH E. RICHOTTE
Counsel of Record
BUTZEL LONG, P.C.
Stoneridge West
41000 Woodward Avenue
Bloomfield Hills, MI 48304
(248) 258-1616
richotte@butzel.com
JOSEPH G. COSBY
BUTZEL LONG, P.C.
1909 K Street, N.W.
Suite 500
Washington, DC 20006
(202) 454-2800
cosby@butzel.com
Counsel for Petitioners

